APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 1, 2021) ........................... 1a
District Court of Okmulgee County, State of
Oklahoma, Findings of Fact and Conclusions of
Law (Signed December 14, 2020, Filed December
15, 2020) .................................................................. 12a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 15a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 1, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
NACOLE RYAN BAIN,

Petitioner,
v.
THE STATE OF OKLAHOMA,

Respondent.
________________________
Case No. C-2019-853
An Appeal from the District Court of Okmulgee County,
the Honorable Douglas A. Kirkley, District Judge
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
OPINION
ROWLAND, VICE PRESIDING JUDGE:
Nacole Ryan Bain entered a guilty plea in the
District Court of Okmulgee County to crimes charged
in the following two cases: in Case No. CF-2018-196,
First Degree Murder, in violation of 21 O.S.Supp.2012,

App.2a
§ 701.7(A); and in Case No. CM-2018-492, Larceny
of Merchandise from Retailer, in violation of 21
O.S.Supp.2016, § 1731. The Honorable Douglas A.
Kirkley, District Judge, accepted Bain’s plea and
sentenced her to life imprisonment with the possibility
of parole on the first degree murder conviction and
thirty days on the larceny conviction. The sentences
were ordered to be served concurrently. Bain filed a
timely motion to withdraw her guilty plea. After a
hearing on the motion to withdraw held on November
20, 2019, the motion was denied. Bain appeals the
denial of this motion, raising the following issues:
(1) whether the State of Oklahoma had jurisdiction to prosecute her;
(2) whether her plea was entered as a result of
coercion and duress; and
(3) whether she received effective assistance of
counsel.
We find relief is required on Bain’s jurisdictional
challenge in Proposition 1, rendering her other claims
moot. Bain claims the State of Oklahoma did not
have jurisdiction to prosecute her. She relies on 18
U.S.C. § 1153 and McGirt v. Oklahoma, 591 U.S. ___,
140 S.Ct. 2452 (2020).
On August 19, 2020, this Court remanded this
case to the District Court of Okmulgee County for an
evidentiary hearing. We directed the District Court
to make findings of fact and conclusions of law on
two issues: (a) Bain’s status as an Indian; and, (b)
whether the crime occurred within the boundaries of
the Muscogee (Creek) Reservation. Our order provided
that if the parties agreed as to what the evidence
would show with regard to the questions presented,

App.3a
the parties could enter into a written stipulation setting
forth those facts, and no hearing would be necessary.
The Honorable Douglas A. Kirkley set the hearing
on remand for October 21, 2020. On October 16, 2020,
the parties filed written, agreed Stipulations and Joint
Motion to Strike Hearing in which they agreed: (1) that
Bain has some Indian blood; (2) that she was a recognized member of the Muscogee (Creek) Nation on
the date of the charged offense; (3) that the Muscogee
(Creek) Nation is a federally recognized tribe; and, (4)
that the charged crime occurred within the boundaries
of the Muscogee (Creek) Nation Reservation.
The District Court accepted the parties’ stipulations and on December 15, 2020, filed its Findings of
Fact and Conclusions of Law in the District Court of
Okmulgee County.1 The District Court found the facts
recited above in accordance with the stipulations.
The District Court concluded that Bain is an Indian
under federal law and that the charged crimes occurred
within the boundaries of the Muscogee (Creek) Reservation. The District Court’s findings are supported
by the record. The ruling in McGirt governs this case
and requires us to find the District Court of Okmulgee
County did not have jurisdiction to prosecute Bain.
Accordingly, we grant relief on error raised in Proposition 1.

1 The District Court’s Findings of Fact and Conclusions of Law
were initially filed in this Court on January 25, 2021. They were
filed in this Court again with attachments on February 3, 2021.

App.4a
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED WITH
INSTRUCTIONS TO DISMISS. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch. 18, App. (2021), the MANDATE is
ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
OKMULGEE COUNTY, THE HONORABLE
DOUGLAS A. KIRKLEY, DISTRICT JUDGE
APPEARANCES AT PLEA HEARING
Cory Felkins
Attorney at Law
P.O. Box 998
Okmulgee, OK 74447
Attorney for Defendant
Carol Iski
Assistant District Attorney
314 West 7th Street, 2nd Floor
Okmulgee, OK 74447
Attorney for State
APPEARANCES ON APPEAL
Katrina Conrad-Legler
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Attorney for Petitioner

App.5a
APPEARANCES ON MOTION TO WITHDRAW
Ryan Ferguson
Attorney at Law
100 SW 1st Street
Checotah, OK 74426
Attorney for Defendant
Carol Iski
Assistant District Attorney
314 West 7th Street, 2nd Floor
Okmulgee, OK 74447
Attorney for State
APPEARANCES ON REMAND
Mike Hunter
Attorney General of Oklahoma
Joshua Fanelli
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Attorney for State
Carol Iski
Assistant District Attorney
314 West 7th Street, 2nd Floor
Okmulgee, OK 74447
Attorney for State
Katrina Conrad-Legler
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Attorney for Defendant’ Petitioner

App.6a
OPINION BY: ROWLAND, V.P.J.
KUEHN, P.J.: Concur
LUMPKIN, J.: Concur in Results
LEWIS, J.: Specially Concur
HUDSON, J.: Specially Concur

App.7a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, ___ U.S. ___,
140 S. Ct. 2452 (2020), I do so reluctantly. Upon the
first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents,
but had cherry picked statutes and treaties, without
giving historical context to them. The Majority then
proceeded to do what an average citizen who had
been fully informed of the law and facts as set out in
the dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required
me to resist unlawful orders. Chief Justice Roberts’
scholarly and judicially penned dissent, actually following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.8a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.2
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established over
the last 100 years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
2 I Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA)
in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white section with whom they would trade
and associate. I just cannot get through my mind
how this bill can possibly be made to operate in a
State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have granted
to the Indians in the past.” Id. at 157. In 1940, in the Foreword
to Felix S. Cohen, Handbook of Federal Indian Law (1942),
Secretary of the Interior Harold Ickes wrote in support of the IRA,
“[t]he continued application of the allotment laws, under which
Indian wards have lost more than two-thirds of their reservation
lands, while the costs of Federal administration of these lands
have steadily mounted, must be terminated.” (emphasis added).

App.9a
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and
no longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that when
reasonable minds differ they must both be reviewing
the totality of the law and facts.

App.10a
LEWIS, JUDGE, SPECIALLY CONCURRING:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in the decision
to dismiss this case for the lack of state jurisdiction.

App.11a
HUDSON, J., SPECIALLY CONCURS:
Today’s decision dismisses convictions for first
degree murder and larceny of merchandise from
retailer from the District Court of Okmulgee County
based on the Supreme Court’s decision in McGirt v.
Oklahoma, 140 S. Ct. 2452 (2020). This decision is
unquestionably correct as a matter of stare decisis
based on the Indian status of Petitioner and the
occurrence of these crimes on the Creek Reservation.
Under McGirt, the State has no jurisdiction to prosecute
Petitioner for the crimes in this case. Instead, Petitioner
must be prosecuted in federal court. I therefore as a
matter of stare decisis fully concur in today’s decision.
Further, I maintain my previously expressed views
on the significance of McGirt, its far-reaching impact
on the criminal justice system in Oklahoma and the
need for a practical solution by Congress. See Bosse
v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J.,
Concur in Results); Hogner v. State, 2021 OK CR 4,
___ P.3d ___ (Hudson, J., Specially Concurs); and
Krafft v. State, No. F-2018-340 (OkI.Cr., Feb. 25, 2021)
(Hudson, J., Specially Concurs) (unpublished).

App.12a
DISTRICT COURT OF OKMULGEE COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(SIGNED DECEMBER 14, 2020,
FILED DECEMBER 15, 2020)
IN THE DISTRICT COURT OF THE OF TWENTYFOURTH JUDICIAL DISTRICT OF THE STATE
OF OKLAHOMA SITTING IN AND FOR
OKMULGEE COUNTY
________________________
NACOLE RYAN BAIN,

Appellant/Defendant,
v.
THE STATE OF OKLAHOMA,

Appellee/Plaintiff.
________________________
Okmulgee County District Court
Case Nos. CF-2018-196
Court of Criminal Appeals
Case No.: C-2019-853
Before: Douglas KIRKLEY, District Judge.
NOW on this 14th day of December, 2020, the
above-styled matter comes on before me, the undersigned Judge, pursuant to an order from the Oklahoma
Court of Criminal Appeals remanding this case for
an evidentiary hearing. The State is represented by

App.13a
District Attorney Carol Iski and Assistant Attorney
General Joshua Fanelli. The Appellant/ Defendant is
represented by Katrina Conrad-Legler of the Oklahoma
Indigent Defense System. After examining the file
herein and accepting the stipulations by the parties,
this Court finds no evidentiary hearing is requested
by the parties, and based on the stipulations, makes
the following findings:
FINDINGS OF FACT
4. [sic] The Court of Criminal Appeals has asked
this Court to make a determination as to Appellant/
Defendant’s status as an Indian. This Court finds,
by stipulation of the parties, that Nacole Ryan Bain
has 7/64 Indian blood and has been a member of the
Muscogee (Creek) Nation since October 15, 1997.
5. This Court finds, by stipulation of the parties,
that the Muscogee (Creek) Nation is a federally
recognized Tribe.
6. The Court of Criminal Appeals has further
asked this Court to make a determination as to
whether the crime occurred in Indian Country. This
Court finds, by stipulation of the parties, that Nacole
Ryan Bain committed the crime at issue in this case
within Okmulgee County, which lies entirely within
the Muscogee (Creek) Reservation boundaries.
CONCLUSIONS OF LAW
3. The Court finds, pursuant to McGirt v. Oklahoma, 140 S. Ct, 2452 (2020), that Nacole Ryan Bain
is an Indian for purposes of federal criminal jurisdiction.

App.14a
4. The Court further finds the crime occurred
within the boundaries of the Creek Reservation.
Signed this 14th day of December, 2020
/s/ Douglas Kirkley
District Judge

App.15a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
NACOLE RYAN BAIN,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Case No. C-2019-853
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Robert L. HUDSON,
Judge., Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Nacole Ryan Bain entered a guilty plea in the
District Court of Okmulgee County to crimes charged
in the following two cases: in Case No. CF-2018-196,
First Degree Murder, in violation of 21 O.S.Supp.2012,
§ 701.7(A); and in Case No. CM-2018-492, Larceny of
Merchandise from Retailer, in violation of 21 O.S.Supp.

App.16a
2016, § 1731. The Honorable Douglas A. Kirkley, District Judge, accepted Bain’s plea and sentenced her
to life imprisonment with the possibility of parole on
the first degree murder conviction and thirty days on
the larceny conviction. The sentences were ordered to
be served concurrently. Bain must serve 85% of her
sentence on the First Degree Murder conviction before
she is eligible for parole. should consider any evidence
the parties provide, including but not limited to
treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Bain, within five (5) days
after the District Court has filed its findings of fact
and conclusions of law. Upon receipt thereof, the Clerk
of this Court shall promptly deliver a copy of that
record to the Attorney General. A supplemental brief,
addressing only those issues pertinent to the evidentiary hearing and limited to twenty (20) pages in
length, may be filed by either party within twenty (20)
days after the District Court’s written findings of fact
and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions

App.17a
of law, and supplemental briefing shall occur as set
forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of Bain’s Brief-inChief and Application for Evidentiary Hearing on
Sixth Amendment Claim with this Order, to the District
Court of Okmulgee County.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
/s/ John D. Hadden
Clerk

